Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Routine Prenatal and Postpartum Care
       for Undocumented Aliens




                   JUNE GIBBS BROWN
                    Inspector General

                        MAY 1998
                      OEI-07-96-00310
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Kansas City Regional Office prepared this report under the direction of James H. Wolf,
Regional Inspector General. Principal OEI staff included:

REGION                                               HEADOUARTERS

Hugh Owens, Project Leader                   Wynethea Walker, Program Specialist
Michael Barrett, Program Analyst

 To obtain copies of this report, please call the Kansas City Regional Office at (8 16) 426-3697.
         Reports are also available on the World Wide Web at our home page address:

                                http:llwww.dhhs.gov/progorg/oei
                    EXECUTIVE                         SUMMARY
PURPOSE

To determine if States are claiming Federal reimbursement for routine prenatal and postpartum
care for undocumented alien women.

BACKGROUND

The Omnibus Budget Reconciliation Act of 1986 amended the Social Security Act to limit Federal
payment for emergency medical services under the Medicaid program to undocumented aliens
except in certain circumstances. The amendment explains that an emergency medical condition
occurs when the patient’s health would be in serious jeopardy caused by serious impairment to
bodily functions, or serious dysfunction of any bodily organ or part without immediate medical
attention. This includes labor and delivery but does not include routine prenatal and postpartum
care, generally referred to as those periods “preceding birth” and “after childbirth.”

This review is a follow-up to a prior inspection which found that two States covered and claimed
Federal funds for routine postpartum care for undocumented alien women.

We surveyed the Health Care Financing Administration’s (HCFA) Central Office and regional
offices to determine the extent of directives they had released to States covering specific policies
on claiming Federal funds for non-emergency medical treatment. We also surveyed all Medicaid
State and territorial agencies to determine if they cover and claim Federal funds for routine
prenatal and postpartum care. Further, we requested copies of their policies and procedures
regarding coverage for undocumented aliens.

FINDINGS

Six States Have Claimed Federal Funds for Routine Prenatal and Postpartum              Care for
Undocumented Alien Women. Three Still Do.

We found that Nebraska, New York, and West Virginia cover both routine prenatal and
postpartum care and claim Federal funds for these services. Nebraska has a global obstetric
package that covers prenatal, delivery, and postpartum care. New York is claiming Federal funds
for prenatal services pursuant to an order from the United States District Court for the Eastern
District of New York (reference our third Finding) and continues to claim postpartum care as part
of a Medicaid benefit package. West Virginia covers visits during both the prenatal and
postpartum periods. These States are presently claiming Federal funds.




                                                  i
We also found that three other States have covered some of these services. Minnesota claimed
Federal funds only on routine prenatal care from July 1994 to July 1997. Oklahoma and
Vermont, although not routinely claiming Federal funds for prenatal and postpartum care,
indicated that they have in the past been claimed for undocumented alien women in limited
instances (i.e., citizenship status of the undocumented alien was not known to the provider at the
time the services were rendered).

Survey Respondents in 31 States and Territories Indicated They Were Not Aware of
HCFA’s Guidance on this Subject. Two HCFA Regional Offices Did Not Send Guidance to
States.

Respondents in Nebraska, Vermont, and West Virginia, along with 28 other States and territories
noted that they were not aware of HCFA’s guidance which addressed routine prenatal and
postpartum care for alien women. This was despite HCFA’s various efforts to make States aware
of policy provisions.

Two HCFA Regional Offices (Denver and Kansas City) did not send guidance to the States in
their region subsequent to HCFA Central Office’s issuance of the October 12, 1994 memorandum.

A Federal Court Has Ordered Continuation        of Benefits in New York

As noted earlier, New York continues to claim, and HCFA continues to pay, Federal funds
pursuant to an order of the United States District Court for the Eastern District of New York in
Lewis v. Grinker.

It is our understanding that the Department of Health and Human Services, acting through the
Department of Justice, has recently petitioned the New York Federal court to vacate this order
based on the Personal Responsibility and Work Opportunity Reconciliation Act, Public Law
104- 193 (1996). In the meantime, and until the order is vacated, HCFA is authorized by its own
regulations to pay for Medicaid services provided pursuant to court order.

RECOMMENDATIONS

In an earlier inspection we found two States were improperly claiming Federal funds for routine
postpartum medical care for undocumented alien women. Since misinterpretation or
misunderstanding of the law on this matter continues to exist in some States, we recommend that
HCFA:

 0	    identify and recover Federal funds that Minnesota, Nebraska, Oklahoma, Vermont, and
       West Virginia inappropriately claimed for routine prenatal and postpartum care for
       undocumented alien women;




                                                ii
 0	    assure States and territories are aware of and implementing policy provisions applicable to
       claiming Federal funds for routine prenatal and/or postpartum services; and

 0	    continue to monitor and support the Justice Department’s efforts to resolve the legal issues
       involving New York.

AGENCY     COMMENTS

The HCFA agrees with our recommendations in the report and will take appropriate action to
implement them. The HCFA also noted the positive aspects of our inspection - that there were
only six States in which we detected inappropriate claims, and that these States have
comparatively few undocumented aliens compared to other States. The full text of the HCFA
comments are shown in Appendix D.




                                               111
                       TABLE                  OF CONTENTS
                                                                                                                    PAGE
EXECUTIVE      SUMMARY

INTRODUCTION         ..........................................................1

FINDINGS     ..... .         .                      .............                        .

   Claiming Federal Funds .......                   .............
   Survey Respondents ..........                    .............
   Federal Court Order .........

RECOMMENDATIONS              ......          ..   .......                                                               .6

AGENCY     COMMENTS        .......       .        .......           .......                                             .7

APPENDICES

A: HCFA’s October 12, 1994 Memorandum                           . .......     ..    ......     .       .       ..    . A-l

B: States Not Aware of HCFA Policy Guidance .                       .......    ..   ......   . .               . . B-l

C: HCFA Regional Office Guidance Issuances                          .......         ......     . .     .       . . . C-l

D: Agency Comments         ..         .... . ..               . . .......      ..   ......         .       .   . . . D-l
                              INTRODUCTION 

PURPOSE

To determine if States are claiming Federal reimbursement for routine prenatal and postpartum
care for undocumented alien women.

BACKGROUND

Definitions

Prenatal is defined as the period “preceding birth” and postpartum is defined as the period
“after childbirth. ” Undocumented aliens are immigrants who entered as temporary residents
and overstayed their visas or are engaged in activities forbidden by their visas, or who entered
illegally into this country.

Guideline Perspectives

The Omnibus Budget Reconciliation Act of 1986 (Public Law 99-509, $9406) amended the Social
Security Act, effective January 1, 1987 by adding 9 1903(v) which limits Federal payment for
undocumented aliens’ emergency medical care under the Medicaid program. The Act and Federal
Regulations define an emergency medical condition as “after sudden onset, manifesting itself by
acute symptoms of sufficient severity (including severe pain) that the absence of immediate
medical attention could reasonably be expected to result in-­

         (a) placing the patient’s health in serious jeopardy;
         (b) serious impairment to bodily functions; or
         (c) serious dysfunction of any bodily organ or part.”

Under the Personal Responsibility and Work Opportunity Reconciliation Act (Public Law 104-
 193) enacted August 22, 1996, Medicaid eligibility for aliens is based on whether they are
qualified or non-qualified. Qualified aliens include lawful permanent residents, refugees, asylees,
aliens whose deportation has been withheld, parolees, aliens granted conditional entry, and
battered immigrants. Qualified aliens who are members of certain designated groups as specified
in the law are eligible for Medicaid. Non-qualified aliens, which include illegal and also ineligible
(e.g., temporary workers or foreign exchange visitors) aliens are eligible only for treatment of
emergency medical conditions. Illegal aliens either were never legally admitted to the United
States for any period of time or were admitted for a limited period of time and did not leave the
United States when that time expired.

The Health Care Financing Administration’s (HCFA) State Medicaid Manual specifically indicates
that Federal payment for medical services for qualified aliens whom the State has not elected to
cover or non-qualified aliens will be available only for treatment of emergency medical




                                                   1

conditions (including emergency labor and delivery), “provided such care and services are not
related to routine prenatal or postpartum care.”

HCFA Central Office Guidance Issuances

HCFA issued guidance to both the regional offices and the States which addressed emergency
services for undocumented aliens.

 0      HCFA Memorandum to            “OIG Investigation of Services Provided to and
        Regional Offices              FFP Claims for Non-Emergency Post Partum Care Provided
                                      to Aliens Eligible under 1903(v)-ACTION”
                                      issued October 12, 1994

 0      State Medicaid Manual:        Revision 29, issued November 1988
                                      Transmittal 66, issued April 1995
                                      Transmittal 67, issued February 1997

 0     Federal Regulation:    42 CFR 440.255, issued September 7, 1990

Problem Identijication

We reviewed four States as part of our 1994 inspection of the Systematic Alien Verification for
Entitlements program,’ a process for the States to validate an alien’s immigration status. In the
course of gathering data for that study we discovered that in two of those States their Medicaid
policy covered routine postpartum care for undocumented alien women for which Federal funds
were claimed. In our report on this, we requested HCFA to identity Medicaid overpayments and
to provide guidance to all States to assure their correct interpretation of the law.

Action Taken by HCFA to Correct the Problem

The HCFA indicated that it issued a policy memorandum to all regional offices October 12, 1994.
This memorandum requested regional offices to advise States that routine postpartum services, or
any other non-emergency services, provided to illegal aliens are not eligible for Federal funds
under Medicaid. In addition, HCFA regions were notified to monitor this issue and assure
compliance with Federal provisions (Appendix A).

Needless to say, States and local governments are not precluded from providing, at their own
expense, medical care or financial assistance for prenatal and postpartum care for undocumented
aliens.




       ‘Medicaid Overpayments for Postpartum Care to Undocumented Aliens,
        (OEI-07-95-000 lo), November 4, 1994.

                                                2
METHODOLOGY

We requested copies of coverage and operational guidelines established by HCFA (regulations,
manuals, memoranda, and letters) that it has provided to its regional offices and to the various
Medicaid State and territorial agencies. We also requested copies of related policy guidance the
HCFA regional offices have provided to the States and territories.

We surveyed all 56 Medicaid State and territorial agencies inquiring about policy guidance from
HCFA on non-emergency routine prenatal and postpartum medical services for undocumented
alien women. We requested copies of policies and procedures covering emergency labor and
delivery, and asked about any action taken upon receipt of HCFA guidelines.

We received responses from all Medicaid State and territorial agencies. We analyzed the
information received, specifically evaluating their receipt of HCFA guidelines, coverage policies
and compliance with guidelines for claiming Federal funds.

We conducted our review in accordance with the Quality Standardsfor      Inspections issued by
the President’s Council on Integrity and Efficiency.




                                                 3

                                    FINDINGS
Six States Have Claimed Federal Funds for Routine Prenatal and Postpartum            Care for
Undocumented Alien Women. Three Still Do.

Six of the 56 State and territorial agencies surveyed covered routine prenatal and/or postpartum
care for undocumented alien women, and have claimed Federal funds. Three of these States
continue to pay for routine prenatal and postpartum care.

 0	    Nebraska, New York, and West Virginia cover both routine prenatal and postpartum care
       and continue to claim Federal funds for these services.

               Nebraska has established a global obstetric package that always covers prenatal
               and postpartum care when delivery is billed.

               New York Medicaid policy covers prenatal care as a result of an order from the
               United States District Court for the Eastern District of New York in the Lewis v.
               Grinker case and continues to claim postpartum care as part of a Medicaid benefit
               package. New York case workers do not ask applicants for their status, with full
               coverage provided for prenatal and postpartum care as well as delivery (see
               Finding on page 5).

               West Virginia limits prenatal visits to 20 for the nine month pregnancy period
               unless prior authorization is obtained for more. Postpartum care has a limitation of
               one visit in six months.

 0	    Minnesota does not cover postpartum care. However, it has provided prenatal coverage
       for undocumented alien women and claimed Federal funds for the period July 1994 to July
        1997.

 0	    Oklahoma and Vermont, although not routinely claiming Federal funds for such prenatal
       and postpartum care, indicated that Federal funds have in the past been claimed for
       undocumented alien women in limited instances. (i.e., citizenship status of the
       undocumented alien was not known to the provider at the time the services were
       rendered).

Survey Respondents in 31 States and Territories Indicated They Were Not Aware of
HCFA’s Guidance. Two HCFA Regional Offkes Did Not Send Guidance to States.

Respondents in Nebraska, Vermont, and West Virginia along with 28 other States and territories
noted that they were not aware of HCFA’s guidance which addressed routine prenatal and
postpartum care for alien women (see Appendix B). States expressed this lack of awareness
despite HCFA’s various efforts to communicate policy provisions, which included release of
Central Offrce guidance issuances supplemented by regional offices’ instructions to the States



                                                4

addressing non-emergency medical services for undocumented aliens. Regional office issuances
are shown in Appendix C.

We found that two HCFA regional offices (Denver and Kansas City) did not send out instructions
to the States in their regions subsequent to the October 12, 1994 HCFA Central Office
memorandum.

A Federal Court Has Ordered Continuation        of Benefits in New York

New York continues to claim, and HCFA continues to pay, Federal funds pursuant to an order of
the United States District Court for the Eastern District of New York. In Lewis v. Grinker, 794
F. Supp. 1193, 1200 (E.D.N.Y. 1991) a class action challenging Department and parallel New
York regulations denying Medicaid-sponsored prenatal care to undocumented aliens, the district
court held that the Medicaid statute required that the unborn fetuses of these aliens were entitled
to prenatal care. The district court thus enjoined the Department and the State of New York from
denying prenatal services benetitting these future American citizens. This order was affirmed on
appeal by the United States Court of Appeals for the Second Circuit. See Lewis v. Grinker, 965
F.2d 1206 (2d Cir. 1992). The Second Circuit held that Congress, in enacting the Omnibus
Budget Reconciliation Act of 1986, did not intend to exclude these future citizens from Medicaid-
sponsored prenatal care.

It is our understanding that the Department of Health and Human Services, acting through the
Department of Justice, has recently petitioned the New York Federal court to vacate its order
based on the Personal Responsibility and Work Opportunity Reconciliation Act, Public Law
104-193 (1996). In the meantime, and until the order is vacated, HCFA is authorized by its own
regulations to pay for Medicaid services provided pursuant to court order. See 42 CFR
3 43 1.250.




                                                 5

                      RECOMMENDATIONS
In an earlier inspection we found two States were improperly claiming Federal mnds for routine
postpartum medical care for undocumented alien women. Since misinterpretation of the law
and/or its application continues to exist in States as to the claiming of Federal funds for routine
prenatal and postpartum care for undocumented alien women, we recommend that HCFA:

 0	    identify and recover Federal funds that Minnesota, Nebraska, Oklahoma, Vermont, and
       West Virginia inappropriately claimed for routine prenatal and postpartum care for
       undocumented alien women;

 0	    assure States and territories are aware of and implementing policy provisions applicable to
       claiming Federal funds for routine prenatal and/or postpartum services. It should also
       assure that States’ determine Medicaid applicants’ citizenship status to avoid payment for
       other than emergency medical services for undocumented aliens; and

 0	    continue to monitor and support the Justice Department’s efforts to resolve the legal issues
       involving New York.




                                                  6

                            AGENCY           COMMENTS
The HCFA agrees with our recommendations in the report and will take appropriate action to
implement them. The HCFA also noted the positive aspects of our inspection - that there were
only six States in which we detected inappropriate claims, and that these States have
comparatively few undocumented aliens compared to other States. The full text of the HCFA
comments are shown in Appendix D.




                                               7

              APPENDIX               B
          STATES WHOSE RESPONDENTS
          SAID THEY WERE NOT AWARE
           OF HCFA POLICY GUIDANCE

Alaska              No. Mariana Islands

California          Nebraska

Colorado            Nevada

Connecticut         New Jersey

Dist. of Col.       North Dakota

Georgia             Ohio

Guam                Pennsylvania

Hawaii              Puerto Rico

Indiana             South Carolina

Iowa 
              South Dakota

Kansas 
            Texas

Louisiana 
         Vermont

Massachusetts 
    Virginia

Mississippi 
      Washington

Missouri 
         West Virginia

Montana 





                     B-l
                              APPENDIX                  C


    HCFA REGIONAL                OFFICE GUIDANCE                    ISSUANCES 

Boston: 
          State Medicaid Agency Regional Bulletin No. 95-04, January 13, 1995

New York: 
        State Operations Letter No. 93-68, September 27, 1993

Philadelphia: 
    Medicaid Letter No. 94- 112, November 14, 1994

Atlanta: 
         HCFA Program Issuance Transmittal Notice MCD-68-94,
                   January 19, 1995

Chicago: 
         Regional State Letter No. 38-95, July 1995

Dallas: 
          Regional Medical Services Letter No. 94-80, November 7, 1994

Kansas City: 
     No instructions issued to States

Denver: 
          No instructions issued to States

San Francisco: 
   HCFA Regional Memorandum No. 94-76, November 2, 1994

Seattle: 
         Title XIX State Agency Letter No. 94-48, October 27, 1994




                                          C-l
 APPENDIX    D

AGENCY COMMENTS




       D-l
          DEP.iRTMExT   OF HEALTH & HUMAN     SERVICES                        Health Care Financing   Administration



                                                                             The Administrator
                                                                             Washington. D.C.     20201




  DATE:           APR 6 I98
  TO: 	          JuneGibbsBrown
                 InspectorGeneral

 FROM: 	         Nancy-Ann Mm DeParle
                 Administrator

 SUBJECT: 	 Office of Inspector General (OIG) Draft Report: “Routine Prenataland
            PostpartumCare for Undocumented Aliens” (OEI-07-96-00310)


 We reviewed the above-referencedreport that examines if statesare claimingFederal
 reimbursementfor routine prenatal and postpartum care for undocumentedalien women.
 The OIG inspectionfound that -Minnesota claimed Federal funds from July 1994to July
 1997. Oklahomaand Vermont claimed Federal funds in limited instances,andNebraska,
                             continue to claim Federal fimds.
 New York, andWest Vi.r~@.n.ia

 We would like to point out the positive aspect of this inspection - that therewere only six 

 states in which OIG detectedinappropriate claims - and thesestateshaveinsi-&cant 

numbers of undocumentedaliens. OIG did not report problems in other states,including 

those with the vastmajority of undocumented aliens in which claiming problemscould 

have major financial ramifications. We view this as evidenceof the Health Care 

Financing Administration’s (HCFA’s) and the states’ successin implementingthe law 

limiting Medicaid servicesto undocumented aliens to emergencyservices. 


We concur with the report recommendations. Our detailed commentsfollow. 


OIG Recommendation 

HCFA shouldidentify andrecover Federal funds that Minnesota, Nebraska,Oklahoma, 

Vermont, andWest Vi@.ia inappropriately claim for routine prenatal andpostpartum 

care for undocumentedalien women. 


HCFA Resuonse 

HCFA concurs. We will askthe regional offi ces to follow up with the above-citedstates 

to recover the potential overpaymentsof Federal funds asso$itF,t with the paymentof 

routine prenataland postpartumcare for undocumented alien women!?: 

OIG Recommendation 

HCFA should ensurestatesand territories are aware of and are implementingpolicy 

provisions applicableto claiming Federal funds for routine prenatal and/orpostpartum 

services. It should also ensurethat states determine Medicaid applicants’ citizenship 

status to avoid paymentfor other than emergency medical servicesfor undocumented 

aliens. 


HCFA Resnonse 

HCFA concurs. We will ask the regional offices to remind statesand territories of the 

policy provisions applicableto claiming Federal funds for routine prenataland/or 

postpartum careservicesto undocumented aliens. 


OIG Recommendation 

HCFA should continueto monitor and support the Justice Department’s efforts to resolve 

the legal issuesinvolving New York. 


HCFA Resnonse 

HCFA concurs. We will continue to actively support the Justice Departmentin resolving 

the issuesraisedby this lawsuit. 





                            b    Nancy-Ann Min DeParle
                            a
